                         Department of the Interior
                        Office of Inspector General




           AUDIT REPORT


        U.S. Fish and Wildlife Service
          Federal Assistance Grants
    Administered by the State of Delaware,
    Department of Natural Resources and
     Environmental Control, Division of
     Fish and Wildlife, from July 1, 2003,
            through June 30, 2005




Report No. R-GR-FWS-0027-2005    October 2006
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                                 October 16, 2006

                                     AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Director of External Audits

Subject:       Final Audit Report on the U.S. Fish and Wildlife Service, Federal Assistance
               Division, Grants Administered by the State of Delaware, Department of Natural
               Resources and Environmental Control, Division of Fish and Wildlife, from July 1,
               2003, through June 30, 2005 (No. R-GR-FWS-0027-2005)

        This audit report presents the results of our audit of costs incurred by the State of
Delaware (state), Department of Natural Resources and Environmental Control (Department),
Division of Fish and Wildlife (Division), under Federal Assistance grants from the U.S. Fish and
Wildlife Service (FWS). The audit included approximately $11.4 million of total reported
outlays on FWS grants that were open during state fiscal years (SFYs) ended June 30 of 2004
and 2005 (see appendix 1). The audit also covered Division compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements for administering its Federal Assistance grants. We also identified
issues concerning the certification of license holders and the use of indirect cost rates.

        We provided a draft of the report to FWS and the Department for response. We
summarized the Department’s responses after each recommendation, as well as our comments on
the responses. FWS concurred with the recommendations and stated the Department’s proposals
to implement the recommendations will be considered in the development of the corrective
action plan. We listed the status of each recommendation in appendix 3.

        Please provide us with your written response to the findings and recommendations
included in this report by January 15, 2007. Your response should include information on
actions taken or planned, target completion dates, and titles of officials responsible for
implementation.

       If you have any questions about this report, please contact the team leader, W.S. Streifel,
at 916-978-5625 or me at 703-487-5345.

cc:     Regional Director, Region 5, U.S. Fish and Wildlife Service
                                               Introduction

Background
The Pittman-Robertson Federal Aid in Wildlife Restoration Act and the Dingell-Johnson Federal
Aid in Sport Fish Restoration Act (Acts) 1 authorize FWS to provide states Federal Assistance
grants to enhance their sport fish and wildlife programs. The Acts allow FWS to reimburse
states up to 75 percent of eligible costs incurred under the grants. They also specify that state
hunting and fishing license revenues cannot be used for any purpose other than administration of
the state fish and game agency.

Objectives
Our audit objectives were to determine whether the Department:

      •   claimed the costs incurred under Federal Assistance grants in accordance with the Acts
          and related regulations, FWS guidelines, and the grant agreements;

      •   used state hunting and fishing license revenues solely for the Department’s fish and
          wildlife program activities; and

      •   reported and used program income in accordance with federal regulations.

Scope
Audit work included approximately $11.4 million of total reported outlays on FWS grants that
were open during SFYs 2004 and 2005 (see appendix 1). We performed our audit at the
Division’s headquarters in Dover, Delaware, and visited five wildlife area offices, six wildlife
management areas, five boating access sites, two field offices, and a maintenance yard (see
appendix 2). We performed this audit to supplement, not replace, the audits required by the
Single Audit Act of 1984, as amended and the Office of Management and Budget Circular
A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. We examined the evidence supporting
selected expenditures charged to the grants by the Department, interviewed Department
employees to ensure that personnel costs charged to the grants were supportable, and determined
whether the Department used fishing license revenues solely for sport fish and wildlife program
purposes. To the extent possible, we relied on the single audit work performed on Delaware to


1
    As amended, 16 U.S.C. §§ 669 and 777, respectively.


                                                          2
avoid duplication of audit effort. We did not evaluate the economy, efficiency, or effectiveness
of Department operations.

We selected a judgmental sample of transactions for substantive testing based on an initial
assessment of risk. We reviewed transactions and supporting documentation related to
purchases, other direct costs, drawdowns of reimbursements, in-kind contributions, program
income, equipment, and other property. We did not project the results of substantive tests to the
total population of recorded transactions. We also reviewed the financial management systems
for labor and license fees to identify the relevant internal controls over transactions recorded in
those systems and to test the operation and reliability of those controls.

Prior Audit Coverage

On September 4, 2002, we issued advisory report No. 2002-E-0010, “Final Advisory Report on
Costs Claimed by the State of Delaware, Department of Natural Resources and Environmental
Control, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1998 to
June 30, 2000.” We followed up on the report’s single finding and determined it had been
resolved and implemented.

We reviewed the state’s Comprehensive Annual Financial Reports for SFYs 2004 and 2005 and
the Single Audit report for SFY2004. The Department was audited as a major program and the
reports did not include any findings regarding Federal Assistance funds or programs.




                                                 3
                                      Results of Audit

Audit Summary
We found the Department generally complied with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS. State hunting and fishing license revenues were
used solely for the Department’s fish and wildlife program activities. Program income was
reported and used in accordance with federal regulations.

We also identified the issues listed below that require attention by the FWS. We discuss these
issues in more detail in the findings and recommendations section.

     Duplicate license holders not removed. Duplicate license holders were not accounted for
     or removed from the annual license certifications.

     Incorrect indirect cost rates charged. The indirect cost rates negotiated by the Department
     did not restrict the allocations for state central services to 3 percent of the state's annual
     Federal Assistance apportionments, as required under the Acts and regulations.

Findings and Recommendations

A.      Duplicate License Holders Not Removed

        FWS requires states to report the number of hunting and fishing license holders and
        certify the accuracy of their counts. For license years 2003 and 2004, the Division did
        not account for or eliminate duplicate license holders in its annual counts. As a result,
        Delaware certifications of license holders were incorrect.

        The Code of Federal Regulations (50 C.F.R. § 80.10(c)(5)) prohibits including an
        individual more than once as a hunting or fishing license holder in annual certification
        counts. The state is responsible for certifying that it eliminated duplications.

        A Division official stated that Delaware receives the minimum annual apportionment of
        grant funds, which would not be affected by eliminating potential duplicate counts of
        license holders. FWS, however, bases its apportionment of grant funds, in part, on the
        number of license holders. Although some states receive no less than a minimum
        apportionment, accurate license certifications are necessary to compute properly each
        state’s apportionment.

        Recommendation

        We recommend FWS ensure the Division accounts for and eliminates duplicate license
        holders from its annual license certifications.




                                                 4
     Department Response

     The Division concurred with the finding and hired a seasonal employee who sampled
     hunting and fishing licenses in accordance with a statistically reliable protocol provided
     by FWS.

     FWS Response

     FWS concurred with the finding and will work with the Division to implement the
     recommendation in the corrective action plan.

     OIG Comments

     Based on the FWS response, we consider the recommendation resolved, but not
     implemented. While the Division has taken steps to identify duplicates in the current
     annual certification, additional information is needed in the corrective action plan
     verifying FWS reviewed and accepted the Department’s survey results and outlining
     actions planned to address future certifications.

B.   Incorrect Indirect Cost Rates Charged

     The Division applied incorrect indirect cost rates to Federal Assistance grants for SFYs
     2004 and 2005. States allocate administrative costs for state-provided central services as
     an indirect cost across multiple grants and programs. The Acts limit indirect costs that
     states can allocate for state central services to Federal Assistance grants. While the
     Division has an approved indirect cost rate, it has not negotiated a restricted rate to
     account for the limitation on state central services or established official written policies
     and procedures to ensure compliance with the limitation.

     The Acts’ limitation on indirect costs has been codified in 50 C.F.R. § 80.15(e), which
     requires administrative costs in the form of indirect costs for state central services to
     follow an approved cost allocation plan and not to exceed 3 percent of the annual Federal
     Assistance apportionment in any one year. In addition, Appendix E, 2 C.F.R. 225 §
     C.4(b) requires the state to request a special or restricted rate when federal statutes
     restrict reimbursement of certain indirect costs. A restricted rate eliminates prohibited
     costs from the indirect cost pool.

     We believe the state needs to develop formal policies and procedures to ensure it is not
     requesting reimbursement for state central services costs exceeding 3 percent of the
     annual apportionment of Federal Assistance funds.

     Recommendations

     We recommend that FWS, before reimbursing the Division for indirect costs, work with
     the Department to:




                                               5
1. establish official written policies and procedures to take and document steps ensuring
   compliance with the 3 percent limitation on state central services and

2. ensure the Division applies for and receives a restricted indirect rate if the
   calculations show that the 3 percent limitation will be exceeded.

Department Response

The Division stated that there is a protocol in place to track indirect costs relating to the 3
percent limitation and ensure that indirect costs recovered under Federal Assistance
grants do not exceed the limitation. This protocol involves terminating cost recoveries
during the grant year once the 3 percent limitation is reached.

FWS Response

FWS concurred with the finding and will work with the Division to implement the
recommendation in the corrective action plan.

OIG Comments

Based on the FWS response, we consider the recommendations resolved, but not
implemented. The state’s response indicates that if it consistently applied the approved
rate throughout the grant period, it would exceed the 3 percent limitation. Regulations
and guidance require that if a state anticipates exceeding the 3 percent limitation, the state
must apply for and receive a restricted rate. Additional information is needed in the
corrective action plan concerning the specific actions taken or planned to resolve and
implement the recommendations.




                                           6
                                                           Appendix 1
                                                              Page 1 of 2

DELAWARE DEPARTMENT OF NATURAL RESOURCES AND ENVIRONMENTAL CONTROL
                    DIVISION OF FISH AND WILDLIFE
               FINANCIAL SUMMARY OF REVIEW COVERAGE
                  JULY 1, 2003 THROUGH JUNE 30, 2005
 Grant Number          Total Grant Amount           Total Outlays
 F-2-D-52                   $500,000                  $426,032
 F-2-D-53                     500,000                   348,203
 F-2-D-54                     350,000                   298,312
 F-33-R-22                    110,000                    82,665
 F-33-R-23                    115,381                    84,571
 F-33-R-24                    116,000                         -
 F-41-R-15                     99,000                    90,973
 F-41-R-16                     87,500                    87,500
 F-41-R-17                     58,200                         -
 F-42-R-15                    157,000                   129,727
 F-42-R-16                    155,680                   157,832
 F-42-R-17                    154,100                         -
 F-43-E-13                    575,000                   387,902
 F-43-E-14                    531,000                   373,465
 F-43-E-15                    520,000                         -
 F-47-R-13                    316,000                   296,523
 F-47-R-14                    258,000                   204,406
 F-47-R-15                    267,500                         -
 F-48-D-11                  2,100,000                 2,088,210
 F-48-D-12                  1,340,000                   666,667
 F-48-D-13                    525,000                         -
 F-50-D-4                     143,200                         -
 F-51-T-10                    114,000                   114,000
 F-51-T-11                    128,000                    81,097
 F-51-T-12                    148,000                         -
 F-52-C-10                    177,000                   177,000
 F-52-C-11                    180,000                   180,000
 F-52-C-12                    214,000                         -
 F-56-R-10                     91,200                         -
 F-56-R-8                      70,000                    44,329
 F-56-R-9                      74,459                    41,682
 F-59-D-4                     150,000                     2,651
 F-59-D-5                      12,000                         -
 F-65-R-3                      76,900                    76,900
 F-65-R-4                     100,000                    90,605
 F-65-R-5                      80,000                         -
 F-66-O-4                      42,000                    26,942
 F-69-D                       300,000                   297,854




                                7
                                                           Appendix 1
                                                              Page 2 of 2

DELAWARE DEPARTMENT OF NATURAL RESOURCES AND ENVIRONMENTAL CONTROL
                    DIVISION OF FISH AND WILDLIFE
               FINANCIAL SUMMARY OF REVIEW COVERAGE
                  JULY 1, 2003 THROUGH JUNE 30, 2005
 Grant Number          Total Grant Amount           Total Outlays
 F-70-D-1                     142,705                    116,905
 F-70-D-2                     369,456                    324,260
 F-70-D-3                     167,500                          -
 F-71-D-1                     600,000                    517,512
 F-72-D-1                   1,000,000                    989,595
 F-73-R-1                      37,282                     30,464
 F-73-R-2                      39,500                          -
 F-74-D-1                     175,000                          -
 F-75-R-1                      24,500                          -
 F-76-D-1                     700,000                          -
 W-21-R-39                      6,500                      6,500
 W-21-R-40                      6,500                      6,505
 W-28-D-11                     90,000                     16,620
 W-29-T-10                     70,000                     10,190
 W-30-C-10                     88,000                     73,605
 W-30-C-11                     88,000                     88,000
 W-30-C-12                    100,000                          -
 W-33-R-7                      19,063                     19,063
 W-33-R-8                      12,461                     12,470
 W-33-R-9                      12,329                          -
 W-34-S-6                     450,000                    450,000
 W-34-S-7                     650,000                    450,000
 W-34-S-8                     692,667                          -
 W-35-R-5                      56,000                     27,899
 W-35-R-6                     100,000                     50,995
 W-35-R-7                     105,000                          -
 W-36-R-5                      34,648                     24,948
 W-36-R-6                      33,075                     15,328
 W-36-R-7                      37,000                          -
 W-37-R-5                      88,000                     71,038
 W-37-R-6                      92,400                     78,844
 W-37-R-7                      97,020                          -
 W-38-R-5                      22,000                      7,306
 W-38-R-6                      15,000                      9,019
 W-38-R-7                      27,000                          -
 W-39-E                       100,000                     23,154
 W-5-D-56                   1,000,000                    516,854
 W-5-D-57                     930,000                    564,043
                          $19,214,726                $11,357,165


                                8
                                                       Appendix 2


DELAWARE DIVISON OF FISH AND WILDLIFE
             SITES VISITED

        Division of Fish and Wildlife Offices
               Assawoman WA Office
               Little Creek WA Office
Division of Fish and Wildlife Headquarters Dover, DE
                Augustine WA Office
                 Ommelanden Range
         Aquatic Resource Education Center

                 Wildlife Areas
                Cedar Swamp WA
               Woodland Beach WA
              Norman G. Wilder WA
              Industrial Forest Lands
                 Old Furnace WA

                 Boating Access
          Massey Landing – Assawoman
           Indian River – Assawoman
        Woodland Beach – Sussex County
    Ft DuPont Boat Ramp – New Castle County
         Phillips Landing – Kent County

                   Other Sites
                  Fenwick Island
                    Port Penn




                         9
                                                                         Appendix 3


   DELAWARE DEPARTMENT OF NATURAL RESOURCES AND ENVIRONMENTAL CONTROL
                       DIVISION OF FISH AND WILDLIFE


    Recommendations              Status                      Action Required

A and B                 FWS concurs with findings;   Provide a corrective action plan
                        the recommendations are      that identifies the actions taken or
                        resolved, but not            planned to resolve the findings
                        implemented. Additional      and implement the
                        information is               recommendations. The plan
                        needed.                      should also include the target
                                                     date and the official responsible
                                                     for implementation of each
                                                     recommendation. Any
                                                     recommendations that are not
                                                     implemented at the end of 90
                                                     days (after January 15, 2007) will
                                                     be referred to the Assistant
                                                     Secretary for Policy,
                                                     Management and Budget for
                                                     resolution and/or tracking of
                                                     implementation.




                                     10
